No.
Supreme Court. U.S.
FILED

In the
Supreme Court of the United Statds SEP 0 2 2021

OFFICE OF THE CLERK

Wendy Marie Meigs, Petitioner
v.

Trey Bergman and Bergman ADR Group, Respondents

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Wendy Meigs
Pro-se
3131 Blackcastle Dr.
Houston, Texas 77068
281-798-0780

David Wayne Clawater
Attorney on Recordfor
Trey Bergman and
Bergman ADR Group
2727 Allen Parkway,
Suite 500
Houston, Texas 77019

Question Presented for Review
Should a mediation, family court-ordered or not,
1.
follow normal courtroom guidelines as courts defer court
functions to mediation which creates the expectations of
participants that mediation will run under the same
protections and guidelines of a regular courtroom? Should
mediation participants and mediator be held liable for
allowing the abuse and manipulation of a vulnerablevictim? (Murphy, 2021 ){United States ofAmerica,
Plaintiff-appellee, v. Jeffrey L. Goldberg, Defendantappellant, 406 F.3d 891 (7th Cir. 2005).
Should individuals be allowed to represent
themselves in court, especially against educated, trained,
and highly-skilled lawyers? (If the institution of justice
continues to allow individuals to represent themselves,
then the institution is geared against the self-litigant,
pro-se).
2.

-i-

Parties Involved
The parties involved are identified in the style of
the case.

Related Cases
Meigs v. Trey Bergman and Bergman ADR,
No. 2017-73032 of the 270th District Court of
Texas. Judgment entered: December 4th, 2018.
Meigs v. Trey Bergman and Bergman ADR,
No. 14-19-00167-CV, Fourteen Court of
Appeals: Judgment entered on December 4th,
2018 and affirmed on October 13th, 2020.
Meigs v. Trey Bergman and Bergman ADR, No. 20-0949
of the Texas Supreme Court. Judgment denied on
April 9th, 2021.

- li -

Table of Contents
.. .Page i
.. .Page ii
...Page ii
...Page iii
Page iv-v
....Page 1
...Page 1
....Page 1
.Page 2-6
..Page 7
..Page 8
Page 9-14
...Page 15
...Page 16
....Page 17

Questions Presented.......
Parties Involved.............
Related Cases.................
Table of Contents............
Table of Authorities........
Citations of Opinions.....
Basis of Jurisdiction.......
Constitutional Provisions
Statement of Case...........
Reasons for Granting......
Conclusion......................
Appendix A.....................
Appendix B.....................
Appendix C.....................
Appendix D....................

- Ill “

Table of Authorities
Cases
Haines v. Kerner,
404 U.S. 519 (1972)

Page 1

Macl in v. Freake,
650 F.2d 885, 887-88 (7th Cir. 1981).Page8
Mathews v. Eldridge,
424 U.S. 319, 335 (1976)

Page 2

United States of America, Plaintiff-appellee, v. Jeffrey
L. Goldberg, Defendant-appellant, 406 F.3d 891
Page i
(7th Cir. 2005)
Walker,
Page 5

827 S.W.2d at 843

Constitutional Provisions
US Constitution, 1st Amendment.
US Constitution, 5st Amendment.
US Constitution, 6th Amendment.
US Constitution, 14th Amendment

- IV -

Page
Page
Page
.Page

1
1
1
1

Table of Authorities (continued)
Statutes
Page 4
18 U.S. Code § 1001
Page 3
18 U.S. Code § 1018
Administrative Dispute Resolution Act of 1996 Sect
.Page 6
571-581
Code of Conduct for United States Judges .pessim
Page 3, 4, 11, 12
Tex. Fam. Code §§ 6.602(b)

Rules
ABA Model Rules of Professional Conduct..Pessim
Federal Rule of Civil Procedure 68 ............. Page 3
Tex Rules of Civil Procedure........ ............. Pessim
The Uniform Mediation Act.......... Failures Pessim
Other:
Abrams, J. (2017, Sept. 21). Every year, millions try to
navigate US courts without a lawyer. The
Page 3
Conversation...................................
Coleman, B. (2019). Dark Psychology and
Page 3
Manipulation, (ed). Pub. P 57........
Murphy, C. PhD. (2021). Learn About Coercive Control
and Psychological Abuse: A power and control
wheel has been developed recognizing abuse
and psychological assault by Lawyers against
their clients. Social Institutions &
Page 18
Abuse.

-v-

Citations of Opinions
1. 270th District Court of Texas; Case # 2017-73032
2. 14th Circuit Court of Appeals; Case # 14-19-00167-CV
3. Texas Supreme Court; Case # 20-0949
Statement of the Basis for the Jurisdiction
The Judgment of the 14th Court of Appeals was entered
on December 4th, 2018 and affirmed on October 13th,
2020. A timely petition for rehearing was denied on
April 9th, 2021 by the Texas Supreme Court. This court
granted 150 days extension from Covid over the usual
90 days to file a Writ of Certiorari due September 6th,
2021. This Court’s jurisdiction rests on 42 USC §1983
and has federal jurisdiction as issues pertain to violations
of the First Amendment, due process and equal
protection Fifth and Fourteenth Amendments reaching
all citizens into all states, deals with the growing
mediation numbers to substitute for courts in all states
and the vast growing number of self-litigants, both
requiring federal input for standardized guidelines to
protect the public,.{Haines v. Kerner)
Constitutional and Federal Rules
Provisions Involved.
The First Amendment allows citizens to petition the
Government to address grievances.
The Fifth Amendment allows due process before
property loss.
Sixth Amendment allows assistance of counsel.
Seventh Amendment is a right to trial by a jury.
The Fourteenth Amendment for equal protection under
the law.
Federal Rule of Civil Procedure 8(a)(2) provides
that a Claim for Relief must contain: “a short and
plain statement of the claim showing that the pleader
is entitled to relief...”
-1-

^TATE1Vli5NT-OF^FtiE-€ASE
The Texas Supreme Court denied review, and the
14th Court of Appeals erred in affirming the trial court as
an abuse of discretion and significant misdirection by
opponents over facts of the case as seen in the Petition to
the Texas Supreme Court. As such, granting summary
judgment is a procedural default and abuse of discretion.
(Mathews v. Eldridge)
Failure in the district court’s judge to even read
Petitioner’s rather thorough opposition to summary
judgment is seen in the judge’s response in the
recorder’s record as apparently not knowing the content.
A person deprives another of a constitutional
right, within the meaning of § 1983, "if he does an
affirmative act, participates in another’s affirmative act,
or omits to perform an act which he is legally required to
do that causes the deprivation of which complaint is
made." Preschooler II v. Clark Cnty. Sch. Bd. of Trs.,
479 F.3d 1175, 1183 (9th Cir. 2007) (quoting Johnson v.
Duffy, 588 F.2d 740, 743 (9th Cir. 1978)).
Respondent orchestrated the most horrendous
and abusive family court mediation, including threats,
abandonment, isolation, lies, alcohol, drugging, assault
and all, to force signature on anything to release liability,
in the printed MSA version, for Todd Frankfort in dualrepresenting Asyntria and the CEO, Michael Johnston.
Such dual-representation included writing contracts that
stole shares of stock and allowed gross misappropriation
of assets over one million dollars, still being fought
today. (Meigs v Johnston). Petitioner was told that
nothing could be said due to confidentiality, a
confidentiality released by Johnston and Meigs.
Petitioners lawyer then wrote a semi-fictitious
memorandum, two weeks after Petitioner accused all of
terrible abuse and fear of life, that protected Respondent
for condoning all that took place under his authority as
mediator, and victim-blamed petitioner for being abused.
-2-

Important Judicial Failures Secondary to
Misdirection by Respondents
Respondents acted as a predator by blaming the
victim, the Petitioner, in the memorandum and
mediation as a form of emotional manipulation.
(Murphy, 2021) “Establishing trust and familiarity is
one of the most important aspects of a successful effort
to exploit someone’s emotional vulnerability, then
manipulate them either for personal gain or simply out
of pure malice...” as in mediation. (Coleman, 2019)..
Mediation rules required:
1. The mediation was not a business mediation, but
arose from a Family Court-ordered mediation
following family court codes that specifically request
Respondent to mediate from dual-representing lawyer,
Frankfort.
2. Respondent forgot to include the Family court code
6.602 that prevents revocation. Petitioner legally and
rightfully revoked the agreement less than a week later,
but no-one told her. Led to years of vexatious litigation
to regain control of company continuing today.
3. Lawyer wrote a semi-fictitious memorandum
supporting Respondent, two weeks after Petitioner
demanded the VOIDing of the msa with claims of
serious abuse and incapacity. (18 U.S. Code § 1018)
Such semi-fraudulent memorandum was submitted to
court as truthful and known not to be. Such used by
courts to dismiss. Rule 98. Videotaping would have
protected Petitioner. Only terms to remain
confidential.
4. Email indicates Respondent acknowledged and knew
he forgot the family court code preventing revocation.
Hence, all knew the msa was legally and rightfully
revoked by Petitioner. No one told her and threatened
her in many ways for not complying to signing the
printed version of the msa that releases all liability for
all lawyers and mediator. Accountability required to
-3protect participants.

5. Those at mediation attempted summary judgment to
enforce the msa, but could not due to lack of the Family
court code 6.602.
6. All lawyers refused to represent Petitioner even those
still noted as legal counsel, even though they all knew
that petitioner rightfully revoked the msa via emails.
7. Instead, all lawyers stood before the judge, without
acknowledging Petitioner's rightful revocation as
Petitioner’s new lawyer reference the code.
Accountability required. As pro-se, protection of legal
professionals ensues. (18 U.S. Code § 1001)
8. The purpose of the mediation by Respondent was not
law. The purpose was to create an adverse environment
to force Petitioner to sign anything to release liability
against Frankfort and against those conspiring to protect
Frankfort. Guidelines required.
9. Respondent has history of claims of mediation
manipulation. Quoted for stating that Respondent could
withhold evidence and sway the decision either way.
10. Then Respondents use multiple tactics to prevent,
petitioner as pro-se to achieve righteousness.
11. Respondents then further abuse the system by
claiming estoppel. “... [Ejstoppel is an “extraordinary
remedy” to be invoked in order to stop a “miscarriage of
justice”; it is not a “technical defense for litigants
seeking to derail potentially meritorious claims.” Ryan
Operations, 81 F.3d at 356. Courts erred in abuse of
discretion for promoting such.
12. Petitioner nor any pro-se can beat a summary
judgment, a judgment made by the shear opinion of a
judge with immunity, correct or not. Such must end.
13. Rather than view caselaw of Petitioner in an effort to
defend her rights, the district and appellate courts sided
with the powerful and well-known lawyers, lawyers
they will probably see again in court as possible lawyers
themselves. As such, the legal profession does not lend
well to self-regulation.
-4-

Plight of the Pro-se
1. No expert witness will ever assist a pro-se regardless
of the amount of time given to find one. Expert
witnesses tend to go with winners with pro-se mostly
losing their cases. Thus, being indignant or
condescending in granting summary judgment against a
pro-se, an individual desperate to find righteousness, is
disgraceful to the public and lacks compassion. If
caselaw demands an expert witness, the courts should
prevent bias of expert witnesses and require
representation, or offer them at a cost to the pro-se.
2. Dismissing a case on technicality fails due process. A
pro-se requires a detailed flowchart of what to do next
and time required with examples of what the pleading
looks like, if the courts continue to allow self-litigants.
3. Expecting a pro-se to complete discovery within the
same guidelines as a lawyer demonstrates a lack of
understanding as the pro-se must read, research and
write for what took lawyers four years to learn and
added experience. And at that, the pro-se must do so
only on days off which is usually weekends.
4. Did a pro-se miss a discovery deadline? Petitioner
took three months to figure out how to file subpoenas as
how to do so conflicted. Walker, 827 S.W.2d at 843
5. Once subpoenas were submitted, the courts used
summary judgment to dismiss the case before evidence
could be received, a convenient dismissal to protect a
past sitting chair of the Texas State Bar on ADR.
6. Even writing this request, which I feel very strongly
must be addressed to protect the public with guidelines
in mediation and as pro-se to expose and prevent
corruption, I do so while preparing the funeral of my
father and fearing the formatting and requirements
within timelines.
7.1 do not qualify as indigent; yet, I do not have enough
left after depleting assets to get my company back, so I
am pro-se.
-5 -

Concluding:
1. Who is mediation for? Mediator? Lawyers?
Participants?
2. Who does the lack of strict and accountable
guidelines for mediation benefit? Might over right? The
vulnerable-victim from a divorce or abusive
environment? The need for the mediator to mask the
need to garnish more referrals? (ADR Act)
3. If mediation were to be paid by the courts and
mediators placed on a rotating basis, would that prevent
bias in mediation?
4. Should mediation follow standard work hours with
two fifteen minute breaks and lunch with a maximum of
eight hours per day to enhance true negotiation over the
mighty and enduring to win?
5. Was quid pro quo between Judge Gamble and
Respondent?
6. Should the allowance of abusing a vulnerable woman
under the direction of court officials bound to candor
create criminal implications to ensure the accountability
of treatment of participants?
7. When is abusing the already abused in mediation
allowable? Who is responsible? What is the
accountability?
8. Are the courts only for educated and skilled lawyers?
9. Should cases, against lawyers, judges, and anyone
associated with the judicial system, be restricted to laws
of accountability specific to only such people in order to
ensure the protection of claims against such and the fair
administration of justice. Currently, each lawyer and
judge can and will appear before each other. Appearing
only before a jury without interference from a judge
helps righteousness and the prevention of corruption.
10. When is summary judgment abuse of discretion?
Meigs v Zucker (current in the Supreme Court of TX)
-6-

REASONS FOR GRANTING THE WRIT
The court should grant the Writ of Certiorari to
the plaintiff as the issues addressed indicate significant
issues to all people in all states violating several
amendments and due process. By granting the writ,
issues predominant in mediation and as a pro-se
demonstrate weaknesses allowing corruption to
permeate the courts without accountability.
Please note that writing this has been very
difficult for Petitioner as Pro-se as the technicalities are
difficult to follow. I could not figure out how to cite the
petitions and exhibits without the clerk records and
recorder record. I tried my very best to make this right as
this Court is the last resort to protect Texans from the
abuse and manipulation from the “Fraternity”. I could
find no lawyer to represent me due to the fear of the
lawyers whom I am suing and this mediator. Finding a
lawyer at the district court level became a joke as so
many lawyers were excited to represent Petitioner until
they learned who I was suing. Reaching into another
city, I found a promising lawyer who after investigation
into my case, told me that taking my case would be 40k
just to read the case and $1000 an hour for
representation. Knowing the fear for lawyers to whom I
am suing, I agreed to the expense even though
impossible to truly accept. The lawyer immediately said,
“NO”, “NO”, “No, I can’t do this.”
Please help. I am not the only citizen
experiencing court and mediation abuse. We need
accountability and rules for protections. Accept the writ
and learn of the discrepancies and abuse of due process.
See www.F acebook. com/WomenAgainstLegalAbuse
-7-

CONCLUSION
The Court should grant the petition for a Writ of
Certiorari, to allow Petitioner to fully address the
significant dangers without accountable guidelines to the
growing number of participants to mediation. In
addition, the growing number of pro-se entering courts
requires an understanding by the courts of the abilities
for a pro-se to obtain what the court demands before
dismissal, more defined guidelines and examples for a
Pro-se to follow to meet court requirements,
significantly extra time to achieve those goals with
weekends only to research and write, OR the courts
appoint counsel in a civil case (Maclin v. Freake) OR
the courts prevent individuals from representing
themselves as the endpoint will always belong to the
opposition’s lawyer and technicalities laid out for easy
judge dismissal. Special guidelines must be developed in
this aspect for Pro-se in a legal malpractice case where
dismissal hinges on helping a fellow law professional.
Resnectfiillv submitted,

/s/Wendy Meigs,
Pro-se
3131 Blackcastle Dr.,
Houston, Texas 77068

-8-

APPENDIX
APPENDIX A
Case #20-0949
UNITED STATES
SUPREME COURT OF TEXAS
(last pleading)
Wendy Meigs,
Plaintiff-Appellant-Petitioner,
v.
Trey Bergman and Bergman ADR Group
Defendants-Appellees-Respondents.
From the Fourteenth Judicial District Court of Appeals,
Cause No. 14-19-00167-CV, and the 270th District Court
of Harris County, Cause No. 2017-73032, Honorable
former Judge Brent Gamble
Brief of Appellant
Wendy Meigs
3131 Blackcastle Dr
Houston, Texas 77068

-9-

APPENDIX A (page 2)
STATEMENT OF FACTS
During 2015, Jody and Wendy Meigs filed for
divorce. One of the community property issues was the
50% shareholder ownership in Asyntria also owned 50%
by Micheal Johnston. Sheri Evans, divorce lawyer,
contacted Michelle Bohreer of Bohreer and Zucker LLP,
in reference to the company. Michael Johnston attempted
to take over the company through fraudulent contracts
that effectively stole shares of stock and misappropriated
up to and over by now, millions of dollars. At that time
Todd Frankfort, lawyer to Johnston and Asyntria, dual
represented and appeared to have something to do with
the writing of the contract that fraudulently stole shares
of the Meigs. Evans noticing Frankfort’s signature
representing Johnston and Asyntria, Evans asked who
Frankfort represented as seen in emails.
At deposition, evidence of dual representation
appeared. Bohreer asked if Meigs wanted them to
represent her and Meigs said, “yes”. Nothing else was
said even upon asking later as if attempting to ignore the
dual representation. An email from Bohreer to Zucker
and back discuss that Meigs has claims of dual
representation and Zucker said that those claims would
be given to Bergman to handle. Frankfort requested
Bergman to mediate and Bergman responded in seven
minutes by email. Discovery indicating the
embezzlement and thefts by Johnston were intentionally
not obtained before the mediation per email leaving
Meigs with no knowledge of the significant losses to the
company. Mediation occurred October 30th, 2015 at
Heights Mediation, Bergman’s location and where Judge
Brent Gamble mediated after affirming summary
judgment against Meigs’ claims.
- 10-

APPENDIX A (page 3)
Contrary to what Bergman states, the 2015
mediation was a Family Court-Ordered mediation
by a family court judge under family court rules
regarding community property, Asyntria. When
Jody Meigs left, the mediation should have ended
unless there was another agenda. Unlike regular
mediations, family court mediations must meet specific
requirements to not be revocable. Bergman forgot one
element from the family court document, the family
code 6.602 which states that the document cannot be
revoked. With the element missing, the document can
be revoked and VOIDED without any further litigation.
Bergman mentions repetitively that the mediation
agreement was AVOIDED... but it was not. Such a
statement by Bergman is an attempt to divert the
honorable Justices who have judged on MS As in the
past. The agreement is VOID. Summary judgments
have been written and presented to force validity but a
judge cannot rule on a VOID document so litigation
continued on a document that did not require litigation,
which I had been led to believe did require litigation,
and such happened for several years at great expense so
that when I decided to file against Bergman and Zucker
to protect the rest of abused women who may get
further abused in mediation, I could not find anyone to
represent me and filed on my own.
After the 2015 abusive mediation and Meigs
revoking the document the next week, Sherri Evans,
Todd Zucker and Michelle Bohreer began to use
various threats in an attempt to force me to sign the
printed version of the agreement which looked nothing
like the agreement that I could barely remember and
found another agreement indicating manipulation years
later when I received my case files. I refused. They
- 11 -

APPENDIX A (page 4)
became more forceful with threats of abandonment,
excessive legal expenses, and refusal to finish the
divorce unless I signed which was followed through.
Based on emails, they appear to show Bergman, Evans,
Bohreer, Zucker, Frankfort, and Brady working
together to attempt to force my signature. Rather than
represent me by acknowledging the family court code
6.602 was missing and my revoking VOIDED the
document, they appeared to collude and conspire based
on emails. Multiple useless and vexatious litigation
again occurred over the “void” agreement by Rodney
Castille and Bruce Jamison of which I later found out
that Jamison was good friends with Bergman. Meigs
had no idea that the agreement was VOID as she was
led to believe the agreement required consistent
litigation. Only recently did Meigs find out the truth.
After filing against Zucker and Bergman,
Meigs had to overcome a large learning curve to
understand and keep up with filings and timing of
filings and succeeded with each except one never
seen in the case against Zucker. After multiple
requests for my case files, I had to enter the fact into an
amended pleading for Zucker that I could not get my
case files and within thirty minutes of uploading, I
received a call to pick up the case files. Receipt of my
case files did not finally occur until 2018. Bergman
filed for summary judgment on a no-evidence
motion for summary judgment and Meigs
responded with addressing each claim and stating
that Meigs needed more discovery for evidence.
Meigs sat on a large number of documents from
case files received from Rodney Castille/Bruce
Jamison which should have been evidence and came
- 12-

APPENDIX A (page 5J
from Bohreer/Zucker and Sherri Evans. Meigs even
received emails originating from Todd Frankfort in
those files. More discovery required.
Case files demonstrated consistent linear
appearance of fraud on the court with the omission
being Todd Frankfort and his dual representation. [12]
Multiple subpoenas were issued by Meigs to all
involved in the situation before the signed summary
judgment. However, Judge Gamble affirmed the
summary judgment before Meigs could receive
discovery and thus freed Bergman from Meigs gathering
evidence in the case.
Cheryl Jahani finally accepted to represent
Meigs a few days before the approval of summary
judgment and filed almost immediately for a motion for
new trial. Such short notice into the case by Jahani
indicates a lack of representation at the summary
judgment even with her presence as a week is not
enough time to understand a case; yet, Gamble did not
stop the hearing to allow Jahani to file for continuance
whilst it was Gamble pushed that Meigs needed a
lawyer for the hearing. Concerned that Jahani may be
threatened as Meigs had been, Meigs continued to
inquire with Jahani on her status until Jahani told Meigs
early on that Zucker was extremely well connected.
Meigs understood what that meant. In search for
representation, one attorney told Meigs that going
against Bergman was “legal suicide” and no one would
represent her. Such proved true. The court clerk told
Meigs that she did not know who she was suing and that
Meigs was suing the “Fraternity”, a syndicate of
lawyers and judges who protect each other. This
-13-

APPENDIX A (page 6)
syndicate of corruption and power even reaches into the
Texas State Bar as Meigs was told that the “Fraternity”
can ensure a lawyer gets disbarred if they go against
them. If such is true, then such an amazing level of
corruption should be investigated, cleared, and justice
rebuilt. Considering the power, expertise, connection and
ability to get lawyers disbarred for going against them,
Meigs does not see how any court or justice could ever
consider that Meigs was ever effectively represented or
even state in any document that any presentation,
response, signature or statement made by any lawyer
representing Meigs ever held any authority to represent
her. Meigs is working very hard to ensure the exposure
of those who disrupt and corrupt the judicial courts and
dishonor the Justices, and prays for leniency for errors as
she maneuvers the maze of the legal profession as an
essential employee in the healthcare field and hopes this
honorable Texas Supreme Court sees clear the
opportunity Meigs hands it to make a change to ensure
no lawyer or judge ever attempts to manipulate
documents and the court process to their benefit by
exposing the corrupt to the public so the public sees
change is occurring and by imposing sanctions to deter
further Due Process abuse.
These events are all disputed material issues
of fact which further discovery will expose as
evidence, as Meigs learns better to do such, and must
be presented to a jury.
(Petitioner does not fully understand all requests for
which petitions and formats by the US Supreme Court
and is not sure this is correct. Petitioner requires help,
time and a brief to fully address the fraud on the court
by the syndicate of lawyers called the “Fraternity ”)
- 14-

